TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Report on Audit of Budget System Review



                                         September 2005

                             Reference Number: 2005-1C-121




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2005


MEMORANDUM FOR DAVID A. GRANT
               DIRECTOR OF PROCUREMENT
               INTERNAL REVENUE SERVICE



FROM:                        Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

SUBJECT:                     Report on Audit of Budget System Review (Audit # 20051C0231)

The Defense Contract Audit Agency (DCAA) examined the contractor’s budget and planning
system as of March 21, 2005, to assure the contractor’s budget and planning system and related
internal controls comply with applicable laws and regulations and are operating effectively. Test
procedures were applied from October 1, 2004, through March 21, 2005.
The DCAA opined that the contractor’s budget and planning system and related internal control
policies and procedures are adequate. However, during the course of the examination, the
DCAA also noted other matters involving the budget and planning system and related internal
controls which, although not considered to be significant deficiencies at this time, the DCAA
believes should be communicated to the management of the contractor. These matters are
detailed in the “Suggestions to Improve the System.”
The DCAA examined only the budget and planning system. Accordingly, the DCAA expresses
no opinion on the contractor’s system of internal controls taken as a whole.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
